Nos. 19-465,19-518
In The

^xxpreme Olourt nf tl\2
Peter Bret Chiafalo, Levi Jennet Guerra, and
Esther Virginia John,
Petitioners,
V.

State of Washington,
Respondent.

Colorado Department of State,
Petitioner,
V.

Michael Baca, Polly Baca, and Robert Nemanich,
Respondents.
CERTIFICATE OF SERVICE
I, Jessica Ring Amunson, hereby certify that I am a member of the Bar of this
Court, and that I have this 9th day of March 2020, caused three copies of the Brief of
Professor Edward B. Foley as Amicus Curiae in Support of Neither Party to be served
via overnight mail and an electronic version of the document to be transmitted via the
Court’s electronic filing system to:
L. Lawrence Lessig
Equal Citizens
12 Eliot St.
Cambridge, MA 02138
(617) 496-1124
lessig@law.harvard.edu

Eric Reuel Olson
Solicitor General
1300 Broadway
10th Floor
Denver, CO 80203
(720) 508-6548
eric.olson@coag.gov

Counsel for Peter Bret Chiafalo, et al.
Counsel for Colorado Department of State
Noah Guzzo Purcell
Office of the Attorney General
1125 Washington Street, SE
Olympia, WA 98504-0100
360-753-2536
noahp@atg.wa.gov
Counsel for Washington
Jessica Ring Amunson

